           Audits
                       .-




Office of Inspector General
            United States
  International TI'3& CornmIs.sicn




                  Audit of the USITC
                 Financial Statements
                 for Fiscal Years 1998
                       and 1999
                                     March 24r 2000
rNSPECfOR GENERAL




UNITED STATES INTERNATIONAL TRADE COMMISSION

                          WASHINGTON, D.C. 20436

  March 24. 2000

  TO:    THE COMMISSION

  I hereby submit anAuditoftlJC USITC Financial Statements [orFi.'cal Year., J ')9R
  and /')9'), Report No. IG-03-()(). The Federal Financial Management
  Improvement Act of 1996 states that agencies are to implement and maintain
  financial management systems that comply substantially with federal financial
  systems requirements, applicable federal accounting standards, and the U.S.
  Government Standard General Ledger at the transaction level. The financial
  management systems designs are to support agency budget, accounting and
  financial management reporting processes by providing consistent information
  for budget formulation, budget execution, programmatic and financial
  management, performance measurement and financial statement preparation.

  The Commission is not subject to the Chief Financial Officers Act of 1990 or
  guidance issued by the Office of Management and Budget (OMB) on
  procedures for preparing and auditing federal financial statements. However,
  the Commission has decided voluntarily to follow that guidance in the interest
  of prudent financial management. Historically, we have evaluated the agency's
  financial systems on a cyclical basis. by conducting a biennial audit of the
  Commission's annual financial statements for the preceding two years.
  Commission financial statements have been prepared and audited on this basis
  annually since FY 1989.

   The objectives of this audit were to issue: (I) an opinion as to the fairness of
   the USITC financial statements for the fiscal years (FYs) ending September
   30, 1998, and 1999, in presenting the financial condition and results of
   operations; (2) a statement on the adequacy of internal controls; and (3) a
   statement on compliance with laws and regulations.

   The audit was conducted by Leon Snead and Company, P.C in accordance
   with the Government Auditing Standards issued by the Comptroller General
   of the United States. The auditors expressed the following opinions in the
   auditor's report:
      -- The financial statements presEnt fairly, in all material respects, the
      balance sheets and statement of budgetary resources of the USITC as
      of September 30, 1998 and 1999, and the related statements of net
      cost, changes in net position, and financing for the year ended
      September 30, 1999, inconformity with generally accepted accounting
      principles.

      -- Only one material weakness in internal controls was noted in the
      audit. This was a need for improved controls over the recording of
      accounts receivable.

      -- Test results disclosed no instances of noncompliance with laws and
      regulations applicable to the Commission that would have a material
      effect on the financial statements.

The auditors found other weaknesses in the Commission's financial
management operations, which are set forth in the management letter
transmitted as part of this report. Five recommendations were made to the
Director, Office of Administration:

I.     Issue instructions requiring that a copy of all documents advising of
       moneys to be paid to USITC be sent to OfB.
2.     Standardize the form and content of blanket purchase agreement call
       records and make them available on the local area network for read
       only access by contract specialist and finance personnel.
3.     Require the call records be reviewed by contract specialists on a regular
       basis to ensure compliance with FAR and terms of the blanket
       purchase agreements.
4.     Direct OFB to use call records as the basis for recording obligations for
       blanket purchase agreements and other indefinite delivery agreements
       upon implementing the previous two recommendations.
5.     Issue instructions requiring that Cost Center Managers review
       unliquidated obligations on a regular basis and inform OFB of
       adjustments and de-obligations in a timely manner.

An exit conference was held with the Directors of Administration and OFB,
and their staff, on February 29, 2000. The Director of Administration also
submitted written comments on the draft report. He generally agreed with the
findings and recommendations. His comments are presented in their entirety
as Appendix II of this report.




                                                     Dev J     esan
                                                     Acting Inspector General
                                              OIG-AR·(}3-00




    Audit Report No. OIG-AR-03-00

Audit of the lJSITC Financial Statements
    for Fiscal Years 1998 and 1999

            March 24. 2000




                                           (j1#u",1~~
                                            1t.Sc1~~~
                                                                             OIG·AR-03-00


                                       CONTENTS


Independent Auditor's Report on Financial Statements

Independent Auditor's Report on Compliance with Laws and Regulations

Independent Auditor's Report on Internal Controls over Financial Reporting

Additional Recommendations to Management

Appendix 1: Financial Statements and Management's Discussion and Analysis

Appendix II: Memorandum from the Director of Administration to the Acting Inspector
             General, dated March 14, 2000




                                                                    0"", o/r 1~    tkwrat
                                                                         1'-S.1~7uai.:~
        ~
       ..
                                                                                                    Certified PuNic Accountants
LEON SNEAD
& COMPANY, p.c.                                                                                                             _
                                                                                                    Ei Manngcment Consultants


416 Hungerford Drive, Suite 400
Ro(kville, Maryland 20850
301-738-8190
fax. 301-738-8210
leonsnead.companypc@erols.com



            Independent Auditor's Report on Financial Statements

            Office of the Inspector General, United States International Trade Commission and The
            Commissioners

            We have audited the accompanying balance sheets of the United States International Trade
            Commission (USITC) as of September 30,1998 and 1999; the related statements of budgetary
            resources for the years then ended, and the related statements of net cost, changes in net position,
            and financing for the year ended September 30, 1999. These financial statements are the
            responsibility ofUSITC management. Our responsibility is to express an opinion on these
            financial statements based on our audit.

            We conducted our audit in accordance with generally accepted auditing standards; the standards
            applicable to financial audits contained in Government Auditing Standards, issued by the
            Comptroller General of the United States; and the Office of Management and Budget COMB)
            Bulletin No. 98-08, Auditing Requirements for Federal Financial Statements. Those standards
            req uire that we plan and perform the audit to obtain reasonable assurance about whether the
            financial statements are free of material misstatement. An audit includes examining, on a test
            basis, evidence supporting the amounts and disclosures in financial statements. An audit also
            includes assessing the accounting principles used and significant estimates made by
            management, as well as evaluating the overall financial statement presentation. We believe that
            our audit provides a reasonable basis for our opinion,

            In our opinion, the financial statements referred to above present fairly, in all material respects,
            the balance sheets and statement ofbudgetary resources ofthe USITC as of September 30, 1998
            and 1999, and the related statements of net cost, changes in net position, and financing for the
            year ended September 30, 1999, in conformity with generally accepted accounting principles.

            Our audit was conducted for the purpose of forming an opinion on USITC' s financial statements,
            taken as a whole. The information in the overview sections is not a required part of the financial
            statements, but is supplementary information required by OMB Bulletin No. 97-01, Form and
            Content ofAgency Financial Statements.

            We have considered whether this information is materially inconsistent with the principal
            financial statements. Such information has not been subjected to the auditing procedures applied
            in the audit of the financial statements, and, accordingly, we express no opinion on it.
In accordance with Government Auditing Standards, we have also issued reports dated February
22, 2000 on our consideration ofUSlTC' s internal controls and on its compliance with certain
provisions of laws and regulations.




J
~ ~ ott'
          <7 _   . ~4J     c;,rYfj'
                               ....... ~      £J If
                                              r~   v   I

Leon Snead & Company, P.C.               :J
February 22,2000
            ./
       *.
       (
       .
      ," '."
               ,

                                                                                                 Ceniiied Public Accountants
LEON SNEAD                                                                                       & MI1f1agemenl Coneuuonts
& COMPANY, Pc.                                                                                                           _
416 Hungerford Drive, Suite 400
Rockville, Maryland 20850
301-738-8190
fax: 301-738-8210
lconsnead.companypc@erols.com



           Independent Auditor's Report on Compliance with Laws and Regulations

           Office of the Inspector General, United States International Trade Commission and The
           Commissioners.

           We have audited the financial statements ofthe United States International Trade Commission
           (USITC) as of and for the years ended September 30, 1998 and 1999, and have issued our report
           thereon dated February 22, 2000.

           We conducted our audits in accordance with generally accepted auditing standards and
           Government Auditing Standards, issued by the Comptroller General of the United States; and the
           Office of Management and Budget (OMB) Bulletin No. 98-08. Those standards require that we
           plan and perform the audits to obtain reasonable assurance about whether the financial statements
           are free from material misstatement.

           The management of the USITC is responsible for complying with laws and regulations
           applicable to the agency. As part of obtaining reasonable assurance about whether the agency's
           financial statements are free of material misstatements, we performed tests of its compliance with
           certain provisions of laws and regulations, noncompliance with which could have a direct and
           material effect on the determination of financial statement amounts.

           The USITC is not required to produce financial statements in accordance with OMB Bulletin 97-
           01, Form and Content ofAgency Financial Statements, and is not required to conform to the
           audit requirements ofOMB Bulletin 98-08, Audit Requirementsfor Federal Financial
           Statements, but has elected to do so. While compliance with the Federal Financial Managers
           Integrity Act is not required, we found that the system of accounting does conform to the United
           States Government Standard General Ledger at the transaction level, and generally complies with
           other requirements of OMB Circular A-127, Financial Management Systems,

           The results of our tests disclosed no instances of noncompliance that are required to be reported
           herein under Government Auditing Standards.

           Providing an opinion on compliance with certain provisions of laws and regulations was not an
           objective of our audit, and accordingly, we do not express such an opinion.
This report is intended solely for the information and use of the Commissioners and management
of the United States International Trade Commission and is not intended to be and should not be
used by anyone other than those specified parties. This restriction is not intended to limit the
distribution of this report, which is a matter of public record.




~:p~tf?c\
February 22, 2000
                                                                                                 Certiiied I'liblic Acwunlanls
lEON SNEAD                                                                                       & Managcmml Coneuuants
&COMPANY,P.C.                                                                                                            _
416 Hungerford Drive, Suite 400
Rockville, Maryland 20850
301-738-8190
lax: 301-738-8210
lconsnead.companypc@erols.com



          Independent Auditor's Report on Internal Controls over Financial Reporting

          Office of the Inspector General, United States International Trade Commission and The
          Commissioners

          We have audited the financial statements of the United States International Trade Commission
          (USITC) as of September 30, 1998 and 1999, and have issued our report thereon dated February
          22,2000. We conducted our audit in accordance with generally accepted auditing standards; the
          standards applicable to financial audits contained in Government Auditing Standards issued by
          the Comptroller General of the United States; and Office of Management and Budget (OMB)
          bulletin No 98-08, Audit requirements for Federal Financial Statements.

          The management ofUSITC is responsible for establishing and maintaining internal controls. In
          fulfilling this responsibility, estimates and judgments by management are required to assess the
          expected benefits and related costs of internal control structure policies and procedures. The
          objective of internal controls is to provide management with reasonable, but not absolute,
          assurance that (1) transactions, including those relating to obligations and costs, are executed in
          compliance with applicable laws and regulations that could have a direct and material effect on
          the financial statements, and any other laws and regulations that OMB or USITC management
          have identified as being significant and for which compliance can be objectively measured and
          evaluated; (2) funds, property, and other assets are safeguarded against loss from unauthorized
          use or disposition; (3) transactions are executed in accordance with management's authorization,
          are properly recorded and accounted for to permit the preparation of reliable financial reports in
          conformity with generally accepted accounting principles, and to maintain accountability over
          the assets; and (4) data that support reported performance measures are properly recorded and
          accounted for to permit preparation of reliable and complete performance information. Because
          of inherent limitations in internal controls, misstatements due to error or fraud may nevertheless
          occur and not be detected. Also, projection of any evaluation of internal controls to future
          periods is subject to the risk that procedures may become inadequate because of changes in
          conditions or that the effectiveness of the design and operation of policies and procedures may
          deteriorate.

          In planning and performing our audit, we considered USITC's internal control over financial
          reporting by obtaining an understanding of the agency's internal controls, dete rmined whether
          those internal controls had been placed in operation, assessed control risk, and performed tests of
          controls in order to determine our auditing procedures for the purposes of expressing our opinion
          on the financial statements and not to provide assurance on the internal controls over financial
reporting. Consequently, we do not provide an opinion on internal controls.

Our consideration of the internal controls over financial reporting would not necessarily disclose
all matters in the internal control over financial reporting that might be reportable conditions.
Under standards issued by the American Institute of Certified Public Accountants, reportable
conditions are matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control that in our judgment, could adversely affect the agency's ability
to record, process, summarize and report financial data consistently with assertions by
management in the financial statements. Material weaknesses are reportable conditions in which
the design or operation of one or more of the internal control components does not reduce to a
relatively low level the risk that misstatements in amounts that would be material in relation to
the financial statements being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions.

We noted one matter which is discussed in the following paragraphs involving the internal
control structure and its operation that we consider to be a material weakness.

Repeat Finding - Controls over the recording of accounts receivable need to be improved.

USITC does not have adequate procedures to ensure that accounts receivable are recorded at the
time they occur. This condition was reported in the report of the Audit of the USITC Financial
Statements for Fiscal Years 1998 and 1997 (IG report 04-99), and the Director of Administration
did request that the Office of General Counsel notify the Office of Management and Budget
(OFB) when civil penalties are assessed. However, the Finance Division (FD) of OFB still does
not receive information about amounts due to the government at the time the receivables come
into existence. In addition, there are other types of transactions which give rise to accounts
receivable about which FD should be notified, such as costs related to responding to requests
under the Freedom of Information Act and indebtedness by employees for various reasons.

The recording of accounts receivable is a significant element in the controls to ensure that
amounts due are in fact collected. Normally, some form of written communication is sent to
anyone owing money that USITC will collect. OFB should be provided a copy of all such
communications in order to be able to record accounts receivable on a timely basis.

We recommend that:

        (IC-I) The Director, Office of Administration issue instructions requiring that a copy of
        all documents advising of moneys to be paid to USITC be sent to OFB.

Management response: Agree,Target completion date: May I, 2000

No other reportable conditions were noted during the audit. However, we noted certain matters
involving internal controls and their operations that we have reported to the management of
USITC in a separate letter dated February 22,2000.
This report is intended solely for the information and use of the Commissioners and management
of the United States International Trade Commission and is not intended to be, and should not be
used by anyone other than those parties. This restriction is not intended to limit the distribution
ofthis report, which is a matter of public record.




~~1tJ~/ P,~,
Leon Snead & Company, P.C.
February 22, 2000
      ..~
        , ...  -",/
          "


      ~   ,,- "
                                                                                                   Certified Public Accountants
LEON SNEAD                                                                                         [5' Mmmgrmcl1f Concuttonts
& COMPANY,            P.C~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~_

416 Hungerford Drive, Suite 400
Rockville, Maryland 20850
301-738-8190
fax: 301-738-8210
lconsnead.companypc@emls.com



              Additional Recommendations to Management

              To the Inspector General and the
              The Commissioners
              United States International Trade Commission
              Washington, D.C.

              We have audited the financial statements of the United States International Trade Commission
              (USITC) for the years ended September 30,1998 and 1999, and have issued our reports thereon.

              We conducted our audits in accordance with generally accepted auditing standards and
              Government Auditing Standards issued by the Comptroller General of the United States. Those
              standards require that we plan and perform the audits to obtain reasonable assurance about
              whether the financial statements are free from material misstatements.

              One condition noted during the audit which we consider a material weakness has been reported
              separately in the Independent Auditor's Report on Internal Controls.

              In planning and performing our audit of the financial statements we also noted certain areas
              wherein we believe improvement is needed in operating policies and procedures. The noted
              conditions are summarized below.

              BLANKET PURCHASE AGREEMENTS

              The following deficiencies were noted in the administration and accounting for blanket purchase
              agreement and other indefinite delivery orders:

                      Obligating funds: The Office of Finance and Budget (OFB)was recording obligations in
                      the official accounting records based on dollar limits placed on blanket purchase
                      agreements at the time they were issued. The government is not obligated until a
                      definitive order is placed under these agreements. Obligations should be recorded when
                      orders for specific goods and services are placed, but OFB is not provided information on
                      the orders placed.

                      Documentation of delivery orders placed under blanket purchase agreements: There is no
                      consistency of form and content of call records kept of orders placed under blanket
                      purchase agreements. The identity of the person placing an order was not always shown.
                      In some cases, the estimated cost of the order was not recorded on the call record. Some
       records indicate receipt of invoices from vendors, others do not.

       Orders exceeding limitations: Instances were noted of delivery orders placed which
       exceeded the individual order limits specified in the blanket purchase agreements.

       Monitoring by contract specialists: The administration of blanket purchase agreements
       was not being monitored by contract specialists to ensure compliance with Federal
       Acquisition Regulations and terms ofthe blanket purchase agreements. Requests by
       contract specialists for copies of call records generally have been unheeded.

We recommend that the Director, Office of Administration:

       I)     standardize the form and content of blanket purchase agreement call records and
              make them available on the local area network for read only access by contract
              specialists and finance personnel.

       Management Response: Agree. Target completion date: June 1,2000

       2)     require that call records be reviewed by contract specialists on a regular basis to
              ensure compliance with the FAR and terms of the blanket purchase agreements.

       Management response: Agree. Target completion date: June I, 2000

       3)     once recommendations 1 and 2 have been implemented, direct OFB to use call
              records as the basis for recording obligations for blanket purchase agreements and
              other indefinite delivery agreements.

       Management response: Agree. Target completion date: June I, 2000


REVIEW OF UNLIQUIDATED OBLIGATIONS

As a part of the mid-year review process, and at other times when deemed appropriate, OFB
provides Cost Center Managers with listings of unliquidated obligations, and requests that they
verify that the obligations are still valid and should remain on the accounting records. If no
response is received, which apparently is not infrequent, OFB assumes lite obligations should
remain on the records. Over $40,000 of unliquidated obligations on the records as of September
30, 1999 which did not represent amounts that would have to be paid were removed as a result of
our audit, but should have been removed from the records as much as a year or more earlier. In
addition, the mid-year review conducted in FY1999 resulted in de-obligations of prior year funds
totaling about $930,000. To the extent that those de-obligations could have been identified
during the prior years, USITC could have made more effective use of its funds.

We recommend that the Director, Office of Administration:
       4)      issue instructions requiring that Cost Center Managers review unliquidated
               obligations on a regular basis and inform OFB of adjustments and de-obligations
               in a timely manner.

       Management response: Agree. Target completion date: June I, 2000

This report is intended solely for the information and use of the management of the United States
International Trade Commission and is not intended to be and should not be used by anyone
other than those specified parties. This restriction is not intended to limit the distribution of this
report, which is a matter of public record.




~a~~c~t:C,
February 22, 2000
                  OIG-AR-03-00




APPENDIX I




             OF oI 1K#JedM ~
               1'-S.1~7wh~
United States
International
Trade
Commission



Financial Statements and
Management's Discussion and Analysis
(MD&A)

                                  Fiscal Year
                                     1999
Commissioners
Lynn M. Bragg, Chairman
Marcia E. Miller, Vice Chairman
Carol T. Crawford
Jennifer A. Hillman
Stephen Koplan
Thelma J. Askey
~   ...
lMJ       ITC FY 1999 Financial Statement. and Managemellt's Discussion and Analysis


                                             PREFACE
        The Management's Discussion and Analysis (MD&A) is an important element of the
United States International Trade Commission's (ITC) annual financial statements*, and is
intended to provide an overview of the linkages between ITC program performance and
financial performance.

       The MD&A is designed to complement other existing ITC management and
accountability reports by consolidating agency program and financial information to provide a
concise, balanced presentation of the lTC's operations, achievements, and challenges. The
information in the MD&A is drawn from key ITC planning and budgeting documents and is
based on the progress of ITC's continuous performance improvement efforts.

       As a required section in the ITC's audited financial statement, the MD&A is prepared
annually in a joint effort between program offices and the Director, Office of Finance and
Budget (OFB).




* fTC Annual Financial Statements are prepared in accordance with the requirements
contained in Office ofManagement and Budget (OMB) Bulletin 97-01 "Form and Content of
Agency Financial Statements" and Statements ofFederal Financial Accounting Concepts and
Standards recommended by the Federal Accounting Standards Advisory Board (FASAB) and
approved by the Department of the Treasury, OMB, and Comptroller General.
~   ITC FY 1999 Financial Statements and Managemellt's Discussiulllllld Analysis



                                             CONTENTS

    Preface. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..   1




    Introduction - The Management's Discussion and Analysis (MD&A) '"                                                 I


    Mission and Organizational Structure - The Commission                                                             2


    Performance Goals and Results                                                                                     6


    Financial Performance and Limitations of the Financial Statements .... 12


    Performance Improvements and Major Challenges Ahead                                                           15


    Financial Statements                                                                                          17


    Notes to Financial Statements                                                                                 23




                                                       11
1i
l<>,;;,";~   fTC FY 1999 Financial Statement. and Management's Discussion and Analysis



                                           INTRODUCTION

                       Management's Discussion and Analysis (MD&A)

          The Management's Discussion and Analysis (MD&A) is designed to provide a high
  level overview of the United States International Trade Commission (lTC), what the ITC does,
  and how well the lTC is meeting its goals and objectives. This FY 1999 MD&A provides a
  brief narrative of the lTC's mission, activities. program and financial results, and overall
  financial condition for the period ending September 30, 1999. It is intended to reflect the
  linkages and relationships between the lTC's planning, budgeting, and program performance
  over the 1999 Fiscal Year.

             The lTC's FY 1999 MD&A contains several important elements:

             •      Mission and Organizational Structure - This section highlights the agency's
                    mission and depicts its roles and responsibilities. It defines and summarizes
                    lTC's primary activities. It also provides an overview of the I'I'C's organization
                    and the structural relationships between its various offices. Finally, this section
                    lays out the duties of each of the lTC's offices.

             •       Performance Goals and Results - This section provides a discussion of the
                     current status of the ITC strategic planning and management process. It outlines
                     the five major operations of the agency and explains the lTC's continuing efforts
                     to improve data collection and measurement processes in order to provide
                     tangible linkages between mission goals and performance measures.

             •       Financial Performance and Limitations ofthe Financial Statements ~ This
                     section provides an understanding of the significant balances and conditions
                     reflected on the financial statements, status of TI'C's budgetary resources. and
                     the limitations of the financial statements.

             •       Performance Improvements and Major Challenges - This section presents a
                     summary of the lTC's business and improvement initiatives, and of the major
                     challenges the agency expects to face in the coming fiscal year.
a
i~        fTC FY 1999 Financial Statements and Management's Discussion and Analysis



                   MISSION AND ORGANIZATIONAL STRUCTURE

                                               The Commission

        The mission of the Commission is twofold: Administer U.S. trade remedy laws in a fair and
        objective manner; and provide the Presldem, U.S. Trade Representative, and the Congress
        with Independent, quality advice and information on matters of international trade and
        competitiveness. In so doing, the Commission contributes to the development and
        implementation of sound and informed U.S. trade policy.



         Established in 1916 as the United States Tariff
Commission, and renamed in 1974, the U.S.                        •   directing actions, subject to Presidential
International Trade Commission (lTC) is an                           approval, against unfair trade practices such
independent, nonpartisan, quasi-judicial federal agency              as patent infringement;
established by Congress with a wide range of trade-
related mandates.                                                •   providing objective analyses of other major
                                                                     trade issues, including estimating the probable
         Under its fact-finding authority, the ITC                   economic effects of trade agreements;
exercises broad investigative powers on matters of
trade. In its adjudicative role, the ITC makes                   •   analyzing the competitiveness of specific
determinations with respect to unfair trade practices.               industries, seeking to identify economic
                                                                     factors within the industry as well as external
          The ITC is a national resource where trade                 factors that affect the industry's
data are gathered and analyzed. Information and                      competitiveness; and
analysis are provided to the President and the Congress
to assist them in developing U.S. trade policy.                  •   participating in the development of uniform
                                                                     statistical data on imports, exports, and
         As the role of international trade in the U.S.              domestic production and in the establishment
economy has expanded, the IrC has become                             of an international harmonized commodity
increasingly important to the economic well-being of                 code.
the country as a whole. With this trend in mind, the
Commission recognizes the importance of striving for
excellence in all aspects of its mission, particularly
objectivity, timeliness, thoroughness, and clarity of
analysis in the performance of its investigative duties.

         ITC activities include-

..       determining whether U.S. industries are
         materially injured by reason of imports that
         benefit from pricing at less than fair value or
         from subsidization;

..       making recommendations to the President
         regarding relief for industries seriously injured
         by increasing imports;


                                                             2
    ~,
    \~ ITC FY 1999 Financial Statements and Management's Discussion and Analysis
           <




     The Commission

                The Commission is made up of six                                                           No more than three Commissioners may be
      Commissioners who are nominated by the President                                           members of the same political party. The Chairman
      and confirmed by the Senate for tenus of nine years,                                       and Vice Chairman are designated by the President and
      unless appointed to fill an unexpired term. The terms                                      serve for a statutory two-year term, The Chairman and
      are set by statute and are staggered so that a different                                   the Vice Chairman may not be members of the same
      term expires every 18 months. A Commissioner who                                           political party. and the Chairman may not be of the
      has served for more than five years is ineligible for                                      same political party as the preceding Chairman,
      reappointment.


                                            Commission Organization and Executive Staff as of September 30, 1999


                                                                              Chairoou'l
                                                              Lynn M, Bragg (Term Expires June 16, 2001}

                                                                             COMMISSION
                                                 Mayda E.   MiIl~r, Vic~   Chairman {TErm Expires Decemher /6, 20(3)
                                                 Card T. Crt,.,.,.fiJrd (Term Extended J(J December 16. 1999)
                                                 Jenmfer A. Hillman (Term Expires De~i!mlMr 16, 2(06)
                                                 SIcphen KopilJn {Term Expires JUrll: 16,     zoos,
                                                 Thelma J. A~key (1erm Expirt!s Ot!cember 16, 2(00)

                                                                                     I
 Office of the             Ottice of        Off}(;t of the         Office of External              Office of           Office 01 !be          Offx;e of          Office of Equal
 Administrative           Operations         Secretary                 Relations                 Adminislmtion        General Counsel     Inspector General       Employment
   Law Judges                                                                                                                                                     Opportunity
                       Roben A.. Rogows.q Donna R. Kuelml              Daniel F. Leahy       S,ephen Mi;lLJughUn.      Lyn M. Schlitt      Dell l agudeson
 Sidn...y Harris                                                                                                                                           Jacquelint! A.Walt!rs
 Paul), l..«c-r.ern                                               : Trade Remedy         :                       :,
                                                                                                                 L ______________
                                                                                                                                              fAclinu)
                                                                                                                                          Employee _________________ J
                                                                                                                                                                          ,
 Dt"rl1Morriss                                                    : Assistance
                                                                             _____
                                                                                         ,

                                                                  L~~'::                 ,                                              Dt:vt:l(Jpm~nJ




                                                                                                                                I                        I               I
    Offke of              Ottce of             OffK;(: of               Office of                Office of Finance forrteeofFaclLilie            Offtce of           Office of
   Economic:>             Industries         Investjgations       lnfcrmatlonServices               and Budget        Management                 Personnel          Publishing
Roben B, {(oopmmt       Vern.Simpsrm       l.yMFl!arhersumf        Marlin F. Smilh                Queen E. Cor         JOfWlhan. Brown.      MicheaI). Hillier     pf11Ri!UJ Dywn




                           I                            I
                      Office of Tariff Affairs   Otflce of UnfairImport
                      and T~ Agreements              Invesrigations
                      EugZM A. Rosengl.<rden        L}'7lR 1. Levine




                                                                                             3
         fTC FY 1999 Financial Statements and Management's Discussion and Analysis



The Staff
                                                                                                              Number of staff on
          The ITC staff is recognized                                                                         board as of
throughout the federal government and U.S.                 Organizational unit                                September 30,1999
industry for its knowledge of world trade. A
variety of disciplines and academic                        Commissioners.......................................................         6
backgrounds are found among the commodity                  Offices of the Commissioners................................                23
analysts, economists, attorneys, investigators,            Office of the Administrative Law Judges...............                        9
nomenclature experts, information services                 Office of the Secretary...........................................          13
specialists, and service support personnel at              Office of External Relations...................................               5
the ITC.                                                   Office of the General CounseL.............................                  41.5
                                                           Office of Inspector GeneraL.................................                 2
         lTC analysts and economists                       Office of the Director of Operations.......................                   4
investigate and publish reports on U.S.                     Office of Economics............................................            36
industries and the global trends that affect                Office of Industries..............................................        104
them. The ITC staff provides substantial                    Office of Investigations........................................            26
technical assistance and information on                     Office of Tariff Affairs and Trade Agreements....                           15
current policy questions to members of                      Office of Unfair Import Investigations.................                     12
Congress and the U.S. Trade Representative                  Office of Information Services.............................                 34
(USlR). The staff also works closely with                  Office of the Director of Administration.................                     9
the U.S. Customs Service, other government                  Office of Facilities ManagemenL.........................                     5
agencies, and international trade-related                   Office of Finance and Budget...............................                  6
organizations. Its expertise is often called                Office ofPersormeL.............................................              6
upon by the news media, the business                        Office of Publishing...............................................          9
community, trade lawyers, and the public. At               Office of Equal Employment Opportunity...............                          1
the end of FY 1999, a total of 366.5
permanent employees were employed by the                   Total......................................................................... 366.5
ITC. All ITC personnel are located at 500 E
Street, SW, Washington, DC 20436.




      ITC staffmembers analyze the ongoing   eco~omic impact of various legislation on US industries and consumers.
                                                                   4
~
,~
t<>,,;;    ITC FY 1999 Financial Statements and Management's Discussion and Analysis


                                              Offices ofthe Commission

           The Commissioners, appointed by the                        The Office of Industries provides technical
 President and confirmed by the Senate, oversee and          and economic information and assessments of U.S.
 direct the ope-rations and investigations of the ITC.       industries and merchandise trade.

          The Office of the Secretary compiles and                    The Office of Investigations coordinates
 maintains the Commission's official records and             the Commission's countervailing duty, antidumping
 receives petitions and briefs.                              and review investigations, escape clause and market
                                                             disruption investigati-ons, and investigations under
         The Office of Administrative Law                    section 22 of the Agricultural Adjustment Act.
 Judges hears and decides on unfair trade practices
 brought under section 337 of the Tariff Act of 1930.                 The Office of Information Services
                                                             provides information services and resources,
           The Office of External Relations provides         maintains and improves information technology
 advice on public and media relations; promotes the          systems, and administers the statistical and editorial
 agency to industry associations; and coordinates            services of the agency.
 relations between the lTC, USTR, Congress, and
 other executive branch office.">.                                    The Office ufTariff Affairs and Trade
                                                             Agreements prepares reports on tariff legislation,
          The Trade Remedy Assistance Office                 publishes the U.S, tariff schedule, chairs the import-
 provides information and technical assistance to the        export statistical committee, and participates in the
 public on remedies and benefits available under             Harmonized System Committee.
 U.S. trade laws.
                                                                     The Office of Unfair Import
           The Office of the General Counsel serves          Investigations participates in all investigations
  as the Commission's principle legal advisor.               conducted under section 337 of Tariff Act of 1930.
  responsible for litigation, input on investigations,
  and reports on proposed legislation.                                The Office of Administration oversees all
                                                             procurement and contracting activities of the ITC and
           The Office of the Inspector General               the Director supervises support services of the
 directs and carries.out audits and investigations of        Commission, which include the Offices of Finance
 Commission programs and operations.                         and Budget. Facilities Management, Personnel and
                                                             Publishing.
          The Office of Equal Opportunity
 Employment monitors and maintains affirmative                        The Office of Finance and Budget directs
 action and outreach programs.                               budget, payroll, and accounting functions.

          The Office of Operations supervises the                     The Office of Facilities Management
 Offices of Investigations, Industries, Economics,           coordinates space and storage, supplies, maintenance
 Tariff Affairs and Trade Agreements, Unfair Import          of infrastructure, and safety functions.
 Investigations, and Information Services.
                                                                       The Office of Personnel recruits, places,
          The Office of Economies provides                   and trains employees, and administers position
 economic analyses of the effects of U.S. foreign            classification, benefits, and labor relations programs.
 trade on domestic production, employment. and
 consumption, and provides expert advice to                           The Office of Publishing oversees a\lITC
 Congress and the President on international issues.         publishing activities,



                                                         5
~
~~ ITe FY /999 Financial Statements and Management's Discussion. and Analysis

                          PERFORMANCE GOALS AND RESULTS

         Tbe ITC continues to actively improve its business operations, management processes, and
         customer support in order to more effectively carry out its mission,



          The ITC continues to lake important steps           were created and quantitative indicators were
toward improving its planning, management. and                developed or identified. Many of the goals for IT
reporting systems and processes. The Commission               1999 involved the development of baseline measures,
established a Strategic Planning Board in 1994 soon           all of which have now been established. Detailed
after the enactment of the Government Performance             information is contained in the agency's Program
and Results Act (GPRA) of 1993. The Board,                    Perfonuance Report for fiscal year 1999.
working together with ITC's talented workforce,
has taken important steps toward improving the way                     For eac-h operation, a senior agency
the agency plans activities and measures                      manager serves as Operation Coordinator. Under the
performance - and uses performance information to             general oversight of the Strategic Planning
better serve I'FC's partners, customers. and the              Committee, the Operation Coordinators are
general public. Accordingly, in IT 1999, the lTC's            responsible for annual verification and validation of
Strategic Management Process - the Strategic Plan,            measured values.
Performance Plans, and companion improvement
initiatives - continues La evolve.                                     As part of the Strategic Manngemenr
                                                              Process. the agency performs a review of the
          The Commission has established long-tenu            strategic planning process annually. This includes an
 goals and objectives for its five major operations:          evaluation of the agency's goals and success in
                                                              achieving its objectives, and an assessment of the
 ..       Import Injury Investigations                        policies, practices, and processes for implementing
                                                              operations. The agency is improving its performance
 •        Intellectual Property-Based Investigations          data quality to ensure data sources and
                                                              methodologies are consistent with current Federal
 ..       Research                                            guidance for timeliness, consistency, and accuracy.

 ..       Trade Information Services                                    As a result, the ITC's IT 1999 MD&A,
                                                              with the assistance and participation of the
 •        Trade Policy Support                                Commission's management and staff, will describe
                                                              important achievements toward meeting and
           All of these operations define the output of       improving performance goals and measures. and
 the Commission. emphasizing the benefits that the            institutionalizing a disciplined Strategic Management
 agency provides in facilitating an open trading              Process throughout the 1TC.
 system based on the rule of law and economic self-
 interest. Within each operation, specific critical                    During IT 1999, the rrc had many major
 success indicators and strategic goals have been             accomplishments, continuing to build on its
 identified. As provided for in GPRA, the ITC has             reputation for excellence in serving its direct
 sought to express performance goals in an objective          customers - the President, the U.S. Trade
 and measurable form. To the «tent practicable, the           Representative, and the Congress - as they request
 Commission has established outcome-oriented                  and receive trade policy support. The folJowing
 objectives. For each of these strategic goals,               section outlines a few of the many successes
 performance goals for IT 1999 and ensuing years              achieved in IT 1999 in the five operational areas.


                                                          6
~        ITC FY 1999 Fi1lJ1ncial Statements and Manogement's Discussion and Analysis



                                                                     r· -.-.-----..
                                                                 Reports Instituted. FY 1996-1999



                                                                                                                  n
Import Injury Investigations
                                                            100

                                                                     1---... ..---.--
          The agency faced a growing caseload
during the year, completing a total of 65 various
                                                              80
import injury investigations. This is more than
double the number of investigations completed in
FY 1998. Investigations conducted in this operation
concern a variety of products, including live cattle,
                                                              60     1---·- .-.---------,                              1-···
crude oil, aspirin, ammonium nitrate, emulsion                       !
styrene-butadiene rubber, preserved mushrooms.                40
synthetic indigo, and paintbrushes.

          Two of the main types of investigations
                                                              20
performed include antidumping investigations.
which are instituted to determine whether imported               o
merchandise which is being sold in the United
States at less than fair value is causing material                           96           97        98            99
                                                                     Reports Completed, FY 1998-1999
injury to a domestic industry, and countervailing
duty investigations. which determine whether                70 ]
imported merchandise, which is benefitting from a           60 1-- -
countervailable subsidy is causing material injury to            1
a domestic industry.                                        50                --------

                                                            40+-----
         A major new Commission responsibility
required by the Uruguay Round Agreements Act                30+----
(DRAA) began in 1998- the five-year (sunset)
review process, The URAA requires the                       20
Department of Commerce to revoke any
                                                            10
antidumping or countervailing duty order, or
terminate any suspension agreement. after five years         o
unless the Department of Commerce and the ITC                            96               97        98            99
determine that doing so would lead to continuation
or recurrence of dumping or subsidies, and of                            •        OCher        o   80_
material injury within a reasonably foreseeable                          •        Final        •   PnlIirninary
lime.
                                                            were instituted during FY 1998, an additional 51
          This new requirement will lead to the             were instituted in FY 1999,
review over the next three years of hundreds of
outstanding antidumping and countervailing duty             Intellectual Property-Based Investigations
orders and suspension agreements. The five-year
review process touches on almost every aspect of                     Intellectual property-based investigations
the lTC's work. In addition to establishing                 performed by the Commission involve alleged unfair
procedures and rules for the reviews, ITC paid close        methods of competition. Most of these
attention to public education about the process.            investigations concern allegations relating to
The agency has launched a new five-year (sunset)            infringement of U.S. patents, trademarks, and
review section on its Internet website                      copyrights. and misappropriation of trade secrets.
(http://www.usirc.gm.l to help users understand the         Currently, they are dominated by complex patent-
five-year review process and track current and              based investigations, particularly in the computer and
 future review cases. The first 8 five-year reviews         telecommunications fields.


                                                        7
'ii'
i~ ,,~   fTC FY 1999 Financial Statements and Management's Discussion and Analysis


Research                                                              The Research Division of the Office of
                                                            Economics continued to develop and maintain the
         The focus of investigations conducted in           computable general equilibrium (CGE) models that
the research operation includes those initiated under       enable agency staff to estimate the effects of
Section 332 of the Tariff Act of 1930. Section 332          changing any specific trade restraint, any set of
investigations are among the Commission's most              multiple restraints, or any other quantifiable barriers
demanding tasks. Policymakers need independent,             to U.S. trade.
expert analyses of international trade issues because
of the growing complexity involved in matters of                      The Research Division conducted several
trade policy. A number of investigations, including         section 332 general fact-finding investigations.
both one-time fact-finding studies and continuing           Among those completed in 1999 were investigations
industry surveys and economic analyses •.explored           on the global large civil aircraft industry and market,
areas in which there was little existing or available       the economic impact of U.S. sanctions with respect
information or investigative precedent.                     to India and Pakistan, and an assessment of the
                                                            economic effects on the United States of China's
          Given the various multilateral efforts to         accession to the WTO.
liberalize trade, as well as scheduled WTQ activity
in services, agriculture, and other areas, the
Commission expects to receive additional requests
from (he President and Congress to provide
economic effects advice or other information,
particularly in the area of services, investment,
information technology, and rules of origin.

         The principal performance goal for this
operation was to determine baseline measurements
for such areas as use of ITC information by various
customers, institution of study initiatives of
emerging issues, timeliness of reporting, and
assessment of the value and quality of information.
Nearly 5.6 million visitors accessed the ITC Internet
site, many of which used the site to conduct
research and download reports.                              Representative John P. Murtha appearing before the JTC during
                                                            a steel antidumping/countervailing duty hearing.

         The Commission also published its annual
analysis of significant trade shifts in selected                     The Research Division also rendered
commodity areas and its separate report covering            technical assistance to the USTR, the Council of
the service industries.                                     Economic Advisors, the House Committee on Ways
                                                            and Means, and (he Senate Committee on Finance
         Since the 1920's the ITC has periodically          during FY 1999. providing briefings, critical reviews
issued a series of detailed reports on thousands of         of trade-related issues and trade flow data, and
products imported and exported from the United              general trade-related economic expertise.
States. The most recent series of reports, known as
an Industry and Trade Summary, began in FY 1991.
In FY 1999, nine summaries were published,
bringing the total number in this series
to 136.




                                                        8
~        /"C FY /999 Finan,;'" Statement, and Managemen", Disc",,/an and Analy,i,


       Key Reports Completed in FY 1998                            The Office of Tariff Affairs and Trade
                                                          Agreements is responsible for the Harmonized Tariff
•       Production Sharing: Use of u.s.                   Schedule of the United States (lITS) which provides
        Components and Materials in Foreign               applicable tariff rates and statistical categories for all
        Assembly Operations, 1994-f997                    merchandise imported into the United States. Tbe
                                                          1999 edition was published in November of 1998.
•       Overview and Analysis of the Economic             An electronic version is available on the ITC's
        Impact of u.s. Sanctions with Respect to          website and a draft simplified version has been
        India and Pakistan                                posted for comment.

...     Changing Structure afthe Global Large
        Civil Aircraft Industry and Market:
        lmp/icationsfor the Competitiveness ofthe
        U.S. Industry

..      Update on Economic Effects afSignificant
        U.S. Import Restraints

..      Pianos: Economic and Competitive
        Conditions Affecting the U.S.lnLlustry

..      Assessment of the Economic Effects on the
        United States of China's Accession to the
        W1'O

Trade Information Services

         The agency's use of technology,
particularly the fIC website, DataWeb, and the
Electronic Document Imaging System (EDIS)
continued to enhance the public's access to
information throughout the year.

         The Commission has established an
                                                          Senator Slrom Thurmond leslifying during an injury phase
Interactive Tariff and Trade DataWeb
                                                          hearing in a steel wire rod glnbal safeguard investigation.
(http://dataweb.usitc.govltoalloweasilyaccessible
user-defined data retrieval. Dateweb offers data on
imports and exports, U.S. import duties, staged                      Additional trade information services
tariff reductions, U.S. trade by region and partner        include such activities as trade remedy assistance,
country, and detailed ITC trade database tables.           library services, preparation of legislative reports,
Timely trade data and ease of access has made the          maintenance of the U.S. Schedule of Commitments,
DataWeb a respected source for Congressional staff,        and preparation of Presidential Proclamations
other government agencies, and the public. Since           modifying the HTS
pilot implementation in February 1999, over 4,000
users have registered, generating nearly 22,000            Trade Policy Support
reports each month. In addition, the ITC Tariff
Database available on the Internet was also used as                The Commission supports trade
the basis for the U.S. submission to the Integrated        policymakers in the Executive Branch and in the
Database maintained by the WTO.                            Congress by providing technical expertise and


                                                      9
~\---------------­
t~        fTC FY 1999 Financial Statements and Management's Discussion and Analy~'is


objective factual information on trade issues. A               growth in the size and performance demands of new
major strategic goal in this operation is to enhance           systems and carried out planned upgrades and
the ITC role as provider of technical advice on                reporting for the agency's Year 2000 effort.
international trade issues by actively seeking
opportunities to support U.S. trade policy                              During FY 1999, the implementation of
formulation and U.S. representation in international           Electronic Dockets Information System (EOIS) On-
fora.                                                          Line brought desktop access to non-confidential ITC
                                                               case records to private parties involved in the cases,
                                                               and to the general public. The technology used in
                                                               EOIS Oil-Line will also improve the ease of use of
                                                               the EOIS system for ITC staff attorneys,
                                                               investigators, and Commissioners.

                                                                         Additionally, the Passport system is now in
                                                               place, allowing secure, Web-based remote access to
                                                               internal information resources, including files,
                                                               e-mail, and many databases. Passport has been an
                                                               immediate success, supporting staff off-site and
                                                               providing access to technical assistance during trade
                                                               talks and other critical situations.
fTC staff memncrs review background data.
                                                                        In FY 1999 a major reorganization effort
          In FY 1999, the Commission was actively              created two new offices within the Office of
engaged in providing technical advice and                      Administration - the Office of Facilities Management
assistance to interagency committees and                       and the Office of Publishing.
international organizations in over thirty different
issue areas. Such assistance spanned a broad range                      The Office of Facilities Management
of bilateral and multilateral trade issues and                 completed several renovation projects to
included support for activities of the WTO, the                accommodate changing personnel requirements
Asia-Pacific Economic Cooperation. and                         within the agency and to improve accessibility to the
policymakers considering African trade legislation,            disabled.
particularly in the textile and apparel sectors.
                                                                          The Office of Publishing implemented a
Workplace and Business Improvements                            digital network to create a state-of the-art, networked
                                                               publishing system that interfaces with the entire
          The Commission recognizes that its human             Commission. The office also improved the color
capital is its most valuable asset. Thus, another              printing services and continued the digital conversion
important goal of the Commission is to tailor                  of its historic photographic and publication archives.
internal practices to support, train, and retain highly
motivated employees. The ITC instituted a number                         Within the Office of Personnel, significant
of internal process improvement strategies to                  staff resources were devoted to recruitment of non-
streamline efficiency, improve the workplace, and              permanent employees to assist with the five-year
better serve the agency's employees and customers.             (sunset) review process. As of the end ofFY 1999,
The ITC plans to continue these business and                   twenty-four such employees - primarily attorneys,
workplace improvements in FY 2000.                             trade analysts, and economists -were on board.
                                                               These employees, devoted exclusively to sunset
        The Office of Information Services                     activities, constitute about 6.5% of the operating
implemented a complete upgrade of the agency's                 staff.
network infrastructure to support continuing rapid


                                                          10
~  •
          ITe FY 1999 FinancUd Statements and Managemellt's Discussion and Analysis


         The Office of Administration continues to
simplify and streamline the procurement process
and has made significant gains in implementing
GSA's Simplified Acquisition Procedures,
electronic commerce.and purchase card program.

          The Office of Finance and BUdget
completed the implementation of the government's
mastercontract for fleet, travel.andpurchase. The
integration of these activities resulted in a more
efficient process for obtaining services by utilizing
one vendor for financial services. Additional
improvements in the travel program included
streamlining reimbursement and billingprocedures,
and use of an Intranet airline flight guide service for
staff.




                                                          11
e
i~       fTC FY 1999 Financial Statements and Management's Discussion and Analysis



                 FINANCIAL PERFORMANCE AND LIMITATIONS
                        OF FINANCIAL STATEMENTS

       The ITC has a long history of success in managing the resources entrusted to it. The ITC
       strives 10 enhance its credibility and accountability to the Congress and taxpayers by
       preparing the accompanying financial statements in conformity with the accounting
       principles approved by the Federal Accounting Standards Advisory Board (F ASAB) and the
       form and content guidance of the Office of Management and Budget (OMB).



          The ITC has received a no-year                            Net Cost by Operation Area
appropriation from Congress for its operations since                          1999
FY 1993. Appropriations are recognized as revenue
and expensed when operating expenses are incurred.
Any appropriated funds not expended during the
fiscal year are included in the ITC',s net position and
available for use during the following fiscal year.

Management Integrity and Controls

         The Commission's achievements in fiscal
responsibility are recognized in its record of audits


                                                                            lnjmy_
on financial operations. Four consecutive audits




                                                               .---
conducted on the agency's operations by
independent auditors have resulted in unqualified              •   Import
"clean" opinions. The ITC Inspector General is
responsible for the manner in which the audit of the
ITC's financial statements is conducted.

         The ITC's FY 1999 financial statements are
prepared in compliance with the OMB Bulletin
                                                                -- Trade ~
                                                                   T      _ 5ervtc$S


                                                                   Costs Not~to Programs
97~0 1, Fonn and Content ofAgency Financial
Statements. Although the ITC is not required to                        Net CosIby Office
comply with OMB guidance or the Chief Financial                               1999
Officer's (CFO) Act of 1990 (Public Law 101-576),
the decision was made to present the lTC's financial
statements in accordance with all available guidance.

          The lTC is committed to continual
improvement of its managerial cost accounting
process. Cost assigned to operations includes the
full costs of the operation and consists of all costs
that can be directly traced, assigned on a cause and
effect basis, or reasonably allocated to the operation.
The full cost of operations also includes costs of
supporting services provided by other offices.
Current net cost of operations is assigned to
operations and offices as shown.                               -
                                                               --
                                                               - --
                                                               _e.-              .--
                                                                                  •   OIlI¢<I«lm~
                                                                                  .~!..W~

                                                                                  •
                                                                                  •
                                                                                      Mmil"-'
                                                                                      e-*'t~toO/!ielHl

                                                          12
~
~~         Ire FY 1999 Financial Statements and Management's Discussion and Analysis


        An extensive analysis of Property, Plant,               production of reliable, timely, and consistent
and Equipment (PP&E) was begun in FY 1998 and                   financial information. The following discussion is
completed in FY 1999. The classification ofPP&E                 intended to provide an understanding of some
was refined to include items that: a) have a single             significant balances and conditions that are reflected
unit dollar value of $5,000 or more; b) have a useful           in each of the lTC financial statements.
life of three years or more; and c) are not
consumable (i.e. lose identity upon use). This                             Balance Sheet: The Balance Sheet
classification guidance is consistent with FASAB                presents amounts available for use by the ITC
standards and enables the ITC to accurately track               (assets) against the amounts owed (liabilities) and
fixed assets financially and physically. In addition,           amounts that comprise the difference (net position).
the ITC elected to depreciate PP&E effective                    The largest entity asset is Fund Balance with
October 1, 1997. This leads to a more accurate                  Treasury which represents the appropriated funds
matching of the cost of resources in each reportable            available to the lTC to make expenditures and pay
period. An aggressive review of open obligations                liabilities. PP&E is shown net of accumulated
conducted at mid-year, resulted in the availability of          depreciation.
additional funds amounting to over one million
dollars. These funds will be used to compensate for                       Entity assets are those which the lTC has
a reduced appropriation from Congress in FY 2000.               authority to use in its operations. Non-entity assets
                                                                reflected on the Balance Sheet include items which
                                                                will be transferred to the U.S. Department of
                                                                Treasury when collected and are not available for
                                                                use by the lTC.

                                                                          Liabilities Covered by Budgetary
                                                                Resources are those incurred which are covered by
                                                                available budgetary resources as of the end of the
                                                                fiscal year. Liabilities Not Covered by Budgetary
                                                                Resources includes accrued annual leave and
                                                                receivables which will be paid (0 U.S. Department
                                                                of Treasury upon collection.

                                                                         Net Position is comprised of appropriated
                                                                funds which have not been expended (undelivered
                                                                orders and unobligated balances) and the net results
                                                                of operations since inception.

                                                                          Statement ofNet Cost: The Statement of
                                                                Net Cost is designed to show separately the
                                                                components of the net cost of operations for the
                                                                period classified by the various lTC offices and
                                                                major operational areas. The net cost is the amount
                                                                that ultimately must be paid by the taxpayer. Cost
Commissioner Askey during a lamh meat importation gloOOI        accounting methods and performance measures are
safeguard im'e.l"tigalion.
                                                                being continually refined. This statement will
                                                                evolve to provide useful linkage information for
Understanding the Financial Statements                          management and external users.

          As a result of the CPO Act of 1990 and                         Statement ofChanges in Net Position:
subsequent congressional reform initiatives. great              This statement is presented to explain those items
progress is being made toward improving Federal                 that caused the net position of the lTC to change
financial management. One of the top priorities for             during the reporting period. A significant item to
all agencies is: to improve accountability through the          note is the Prior Period Adjustment This

                                                           13
~,----------------
"~       ITC FY 1999 Financial Statements and Management's Discussion and Analysis


adjustment was made to record the capitalization of          limitations imposed by the FY 2000 Consolidated
certain fixed assets (and related accumulated                Appropriations Bill. Resources available in FY
depreciation) which had been placed in service in            2000 will also include funds deferred from FY 1999
prior years. This addition was made as a result of           to compensate for the anticipated appropriation
the completion of PP&E analysis accomplished in              shortfall, and $300,000 provided by OMB to replace
FY 1999.                                                     the critical EDIS system.

          Statement ofBudgetary Resources: This
statement provides information on how budgetary
resources were made available for the year and their
status at year-end.

          Budgetary outlays differ from expenses
which are included as part of net cost of operations.
Expenses are computed using accrual accounting
techniques which recognize costs when incurred and
revenues when earned and include the effect of
accounts payable. Outlays refer to the issuance of
checks, disbursements of cash, or electronic transfer
of funds made to liquidate an expense regardless of
the fiscal year the service was provided or the
expense was incurred.

         Statement ofFinancing: Accrual-based
                                                             Representatives from the Paper, Allied-Iridiistrial-Chemical
measures used in the Statement of Net Cost differ            ami Energy Workers Union (PACE), attending an uranium
from the obligation-based measures used in the               amidumping hewing.
Statement of Budgetary Resources. In order to
understand these differences, information is needed          Limitations of Financial Statements
to reconcile financial (proprietary) net cost of
operations with obligations of budget authority. The                   Responsibility of the integrity and
Statement of Financing is designed to report those
                                                             objectivity of the financial information presented in
differences and facilitate the reconciliation.
                                                             the financial statements lies with the ITC
                                                             management. The accompanying financial
Budgetary Resources and Use                                  statements are prepared to report the financial
                                                             position and results of the operations of the ITC,
          The key components of the ITC's total
                                                             pursuant to the requirements of Chapter 31 of the
budget are personnel and leasing costs. The ITC has
                                                             United States Code, Section 3515(b). While these
made, and continues to make, a deliberate effort to
                                                             statements have been prepared from the books and
improve utilization of resources and limit the growth        records of the ITC in accordance with the formats
in its budget. In this regard, the agency has                prescribed in OMB Bulletin 97-01, Form and
streamlined procedures by reducing staffing levels,
                                                             Content ofAgency Financial Statements, they are in
space requirements, and other business and
                                                             addition to the financial reports used to monitor and
operational costs in recent years.
                                                             control budgetary resources which are prepared from
                                                             the same books and records. They should be read
         For FY 1999, Congress appropriated
                                                             with the realization that the ITC is an agency of the
$44,495,000 to the ITC, and rescinded $68,000.
                                                             United States Government, a sovereign entity.
Additional resources available included a carryover
                                                             Accordingly, unfunded liabilities reported in the
of unobligated funds from FY 1998 in the amount of
                                                             statements cannot be liquidated without collection of
$1.2 million. For FY 2000, Congress approved total
                                                             related penalties and other liabilities can only be
appropriations of $44,495,000, less an initial
                                                             liquidated with funds appropriated through
rescission of $167,000 in accordance with
                                                             legislation.
discretionary budget authority and obligation

                                                        14
~6---------------­
i~ "~      fTC FY 1999 Financial Statements and Management's Discussion and Analysis



                                PERFORMANCE IMPROVEMENTS
                                AND MAJOR CHALLENGES AHEAD

          In the coming year, the U.S. International Trade Commission faces important challenges:
          potential Year 2000 (Y2K) disruptions; internal realignments to improve operations and
          efficiency; further implementation of reform initiatives; and reduced staff levels in the face of
          increases in workload as a result ofthe five-year (sunset) review process.



Planning and Management Operations                                depends on information systems developed by other
                                                                  Federal agencies, information-gathering systems
         In FY 1999 the ITC aggressively continued                from commercial organizations for news and legal
implementation of its Strategic Management                        research, and components that contain embedded
Process and other business improvement goals.                     electronics. On January 1, 2000, the ability of the
These actions as well as compliance with the Chief                agency to accomplish its mission without disruptions
Financial Officers Act, National Performance                      would be at risk unless the information systems and
Review. Government Performance Results Act, and                   components on which the ITC depends are Y2K
related Federal initiatives will ensure that the ITe              compliant.
continues to build on its reputation for success and
performance excellence.                                                     FY 1999 was a pivotal year for lTC's Y2K
                                                                  program. In January 1999, the Director of
                                                                  Operations was designated the Commission's Y2K
                                                                  Official. Through an organized technical and
                                                                  managerial effort, steps were taken to minimize Y2K
                                                                  vulnerabilities and raise awareness of Y2K issues
                                                                  among its staff. A recent review of the agency's
                                                                  state of readiness conducted by the ITC Inspector
                                                                  General's office revealed the Commission's
                                                                  mission-critical systems are on track for Y2K
                                                                  compliance.

                                                                           Although the ITC performs no functions
                                                                  that are matters of life and death, some functions
                                                                  must operate during any potential disruption. Those
                                                                  functions have been identified as "first-tier"
                                                                  functions. The "second-tier" of functions includes
                                                                  the investigation and research activities that fulfill
                                                                  the agency's mission. Contingency plans have been
                                                                  developed taking into account a variety of scenarios
                                                                  based on different levels of disruption. These plans
                                                                  include a Day One Plan for January 1, 2000, and
The Right Honourable James Bolger. Amba~.fador. Embassy of        detailed business continuity and contingency plans
New Zealand, uddresse~' Ihe ITC during a lamh mea: import
                                                                  (BCCP) for particular agency functions.
injury inve"·/ixalion.

 The Year 2000                                                             Costs associated with Y2K issues were
                                                                  absorbed within available funds by the affected cost
          Since 1988, the Commission has automated                center manager, with the exception of $300,000
essential agency functions and implemented an                     provided by OMB in FY 2000, enabling the ITC to
enterprise-wide local area network (LAN). The ITC                 replace the Electronic Dockets Information System

                                                             15
•
,
l~ ~ ~
       .
            ,
           :-,
                 ITC FY 1999 Financial Statements and Management's Discussion and Analysis


(EDIS). It was determined that correction of EDIS                            The Commission expects its caseload of
Y2K-related weaknesses would be more costly than                   fact-finding and probable-effect investigations to
replacement of the entire system.                                  remain significant. These investigations typically
                                                                   are much more complex than Title VII investigations
                 Additionally, Y2K concerns and plans have         and, accordingly, require more staff resources per
been communicated to staff and the public in a                     investigation. Potential trade liberalization
variety of ways - on the Internet and LAN, through                 initiatives involving areas of the world such as the
staff meetings, and with dissemination of a "Y2K                   Asia-Pacific region, Latin America, and the
Communique." Overall, the agency has done an                       European Union are likely to require assistance to
exemplary job of confronting this issue, prioritizing              the USTR during both the negotiations phase and for
functions, testing systems, and developing                         probable effect advice prior to implementation.
contingency plans, all at minimal cost and disruption              Likewise, we expect to continue to see a strong
to current tasks.                                                  demand for support and analyses related to WTO
                                                                   sector agreements in services and agriculture. The
                                                                   IYC is also seeing an increase in requests for studies
                                                                   on the competitiveness of specific industries.

                                                                            The Commission expects that in FY 2000
                                                                   the Section 337 docket, which relates primarily to
                                                                   the enforcement of intellectual property rights, will
                                                                   continue to be dominated by complex patent-based
                                                                   investigations, particularly in the computer and
                                                                   telecommunications fields. The level of Section 337
                                                                   investigations in these years is expected to remain at
                                                                   or somewhat above the FY 1999 level. In addition
                                                                   to work on new investigations in FY 2000, most of
                                                                   the Section 337 investigations instituted in FY 1999
                                                                   will require substantial work during FY 2000.

                                                                             In recent years, budgetary constraints have
    Future Workload                                                resulted in staff reductions across the agency. With
                                                                   diminished staffing levels, increased case loads
              The Uruguay Round Agreements Act                     present a significant challenge in FY 2000 and
                                                                   beyond. By taking advantage of improved
    requirements for five-year reviews of antidumping
                                                                   management efficiencies and increased use of
    duty orders, countervailing duty orders, and
    suspension agreements has increased the ITC's                  automated systems, the ITC plans to maintain high
                                                                   productivity levels in the coming years.
    investigation case load. During a three-year
    transition period that began in July 1998, the
                                                                   Conclusion
    Commission will conduct injury reviews of nearly
    all outstanding antidumping and countervailing duty
    orders, while at the same time continuing its normal                    The ITC will continue to refine its strategic
    workload of ongoing and new cases. Furthermore,                goals, actively improving business operations,
    as of the beginning of the year 2000, the                      management processes and customer support. A
    Commission is required to conduct reviews of all               high priority on fiscal accountability will lead to
    antidumping and countervailing duty orders imposed             continued disciplined internal controls and clear
    since January I, 1995. The Commission anticipates              linkages between financial and program
    a corresponding increase in court litigation as parties        performance. These initiatives will allow the IYC to
    appeal decisions in five-year reviews and seek                 continue its leadership role and more effectively
    clarification of new statutory terms.                          serve the Commission's ultimate customer, the U.S.
                                                                   public.



                                                              16
•t:::.;;M:\.s - - - - - - - - - - - - - - - -
\;:: • ~ ITC FY /999 Financial Statements and Management's Discussion and Analysis



                                       INTRODUCTION

                                     Financial Statements

        Federal agencies have traditionally prepared financial reports to monitor and control the
obligation and expenditure of budgetary resources. With the enactment of the Chief Financial
Officers' (CFO) Act, Congress called for the production of financial statements that fully
disclose a Federal entity's financial position and results of operations, and provide information
not only for the effective allocation of resources but also with which Congress, agency
managers, the public, and others can assess management performance and stewardship.

        The lTC's FY 1999 Financial Statements include:

         ,.     Balance Sheet

         ,.     Statement ofNet Cost

                Statement ofChanges in Net Position

         ,.     Statement ofBudgetary Resources

         ,.     Statement ofFinancing


         Comparative FY 1998 and FY 1999 data is presented in the Balance Sheet and
 Statement of Budgetary Resources. Also, incorporated into this financial statement presentation
 are accompanying notes and disclosures which are an integral part of the statements.




                                                  17
it:;;,~.~6
~~   "'!'1   ITC FY 1999 Financial Statements and Management's Dlscussion and Analysis



                                     UNITEDSTATES INTERNATIONAL TRADE COMMISSION
                                                        Balance Sheet
                                              As of September 30. 1998 and   1m

                              ASSETS                                               1998             1999

     Entity A •• ets
       Jntrag~rnmental
       Fund Balance with Treasury                                  [NOTE 2)          $7.178128      $7355,723
       Totallntragovernmental                                                        $7,178,128     $7,355,723

       Imp re s t Fund                                             (NOTE3)                1,500            1,500
       A cc o unte Receivable                                      (NOTE4)                    0              537
       Advances an d Prepayments                                   (NOTES)               1,300             1,500
       General Pro p e rty , Plant, and Equipment (Net)            (NOTE6)            1757 570        1,695,770
      Total Entity Aueta                                                             $8938,498      $9055030

      Non-Entity ASlJet&
       IntragO¥eJ'nmental
        Fund Balance with Treasury                                 (NOTE 2)                             $4877
       Total Intragovernmental                                                                $0        $4,877

       Accounts Receivable                                         (NOTE 4)           1.550000           1855
      Total Non-Entity As.ets                                                        $1.550000          $6,732

     Total Assets                                                                   $19 4RA   498    $a 96J   Ifig


                            LIABn.ITIES

     Liabilities Covered by Budgetary Resources
       In t:rag~rnmental
        Accounts Pay ab le                                         (NOTE 7)             $35,741         $3,191
        A cc rued Payroll and Benefits                             (NOTE 7)             288,634        369435
       Totallntrag01lller n mental                                                     $324,375       $372,626

       A ccountB Payable                                           (NOTE7]            1,224,549         801,498
       A ccrued Payroll and Benefits                               (NOTE7)            1,290,020       1,567,259
     Total Liabilities C09Credby
       Budgetary Resourecs                                                           $2838944        $2,741,383

     Liabilities Not Covered by Budgetary Reaourccs
      IntragO'Vl:rnmental
       Accounts Payable                                            (NOTE 8)          $1,550,000                $0
       Other Liab ilitiea                                          (NOTE 8)                   0             6732
       Totallntrag~rnmenta1                                                          $1,550,000            $6,732

        A c c rued Annual Leave                                    (NOTE 8)           2,432,346       2,470,991
      Total Liabllit:1ea Not Coveredby
       Budgetary Itesoul'ce&                                                         $3,982346       $2477723

     T-otal Liabilides                                                               $6821290        $5,219,105

                           NET POSITION

       Unexpended App rc p riatio ns                               (NOTE 9)          $4,341,985      $4,617,877
       Cumulative Results of Op erauc ns                                               (674777)        (7752211
     'total Net Position                                                             $3667 ,208      $3842656

     Total Liabilities and Net P01IltJ.-o:D                                         %'9166 t9B       $9 OftJ 762


                           The A cco mp any ing Notes A re an Integral Part of These Statements




                                                              18
                                                                               IjNITED STATES INTl!:RNATIONAL TRADE COMMISSIOJ\o'
                                                                                                   Stalemmt of N"I C(J!jt
                                                                                         For Ole \"-e/lr Ended Sep"'mt)1"rMI, 1999



                                                                   OFFICE OF                                                                      EQUAL
                                                                     THE              INSPECTOR       EXTERNAL           GENERAL ADMINISTRATIVE EMPLOYMENT
                                                 COMM1SS10NERS SECRETARY               GENERAL        RELATtoNS          COUNSEL  LAW JUDGES OPPORTUNITY OPERATIONS ADMINISTRATiON                             TOTAL

1'ROORAI<C081'B

Iuport lniwY lnvM'tigm:.ne                             $2"""047         lW,!n'                  .,         17/,..,          $2,,,,",276                   .,     liEll,71i6    113,447,100    $1.31~~          $l5,452,ID1
~tuaJJ\t)~-Bffi.ecIlnveBtigsDoIlS                        358,469         83,lli6                 0          23,'r.Ii           Bl9,2l1l           1,870,7'36       19.175       2,C8J,270        soo.,4'i'.2     e.isues
Resemh Pmgmm                                             fm:;a;          M6,4M                   0         319,7ofJ            1D1,537                     0      -BU~U        13,($.011       1,7(1),233       17,893,142
Tmde Infillmdion Services                                     o           3J,aJ.!                0          28,009             100,943                     o        B,973       1,ll!8,4:l)      144,mI           l,~l
Tzade Fbh;y 9.tpport                                          o            :Jfi,101              0         ~                    42zn                       (l       8.8           4M,..m          82,{ffll         7G6,775

'IOT.AL """"""" C081'B                                 $9,655,m       $1,0S4,747                $l        $611,536           ~163,297            $1,370,735     $174,322      $25,""'' ' '    $3,717,881       $t-1,0Cl2,4'W


COSTS NOT AS8ENI!D'lU JIH)()HRM8


OtherSupportCost
OtherTmvei. end 'I".cwapoltationof'ThiDg&
                                                         112.529          30,302           349,>l.1          9,4L3
                                                                                                                                ""'""                Ill,,,",       l'lZ>         ""'ow           """"           1,lli2,231
                                                                                                                                                                                                                     l2,314
Cottml,tliealions and Equip Rental




                                                                                                                                                                                                                   -
                                                                                                                                                                                                                   3:>5,076
PI:iJ:ltiDg BOO Repmd'\di:Jn                                                                                                                                                                                       2lB,990
Suppliesand
Lmdond~
               M""""                                                                                                                                                                                               738,""

Depreciation                                                                                                                                                                                                       300,<00
WIlS on Dispos.aJ of Mil.                                                                                                                                                                                            45,11)<
l.1nfimd!rlAlllJlWleave                                                                                                                                                                                             366<0
NlCl'C08TOPOFaA'OONS                  (NOH 18)         MW'Wi          lIiJ @   l?{l        §j4W,@         !f@lft!            Mzm
                                                                                                                               7S-               §l.)Mlffi
                                                                                                                                                 $1.~           fJ.76.C61
                                                                                                                                                                If,17fiQil    P?OOfW
                                                                                                                                                                              t21HHillJ7      1'\00676
                                                                                                                                                                                              l.'iW.f!16       ~SfB
                                                                                                                                                                                                               w?tIDf§




                                                                                      ThEt~Ir;gNctes.Aleen             Inte;rd Pct cr tres e StdEfTHlts




                                                                                                           19
~~ - - - - - - - - - - - - - - - - -
'i.~ ITC FY 1999 Financial Statements and Management's Discussion and Analysis

                       UNITED STATES INTERNATIONAL TRADE COMMISSION
                                 Statement of Changes in Net Position
                                      As of September 30, 1999




 Net Cost ofOperations
 flnancing Sources
    Appropriations Used                                                                 44,151007
 NetRrsullll d"OJEl"aIicD                                                                ($ml,2Bl)

 PriorFeriod Adjustmmt                                                      (NJI'Ell)      35,816
 Net Cba:1geB In CuDWtlt\1e R5d.lR d"0peraIims                                          ($100,445)

 Increase (Decrease) in lJrieJ<pended Appropriations                                      275,Bffi

 Cbmges InNetPll!dlim                                                                    $175,448

 Net Thsition - Beginning OfFerio d                                                     3,fRfl,'}{f3
 NetPll!dlim - EDdd"Period.


                       The Acccnpanyiog Notes Are an Integral Part ofThese Statemmts




                                                       20
1i
•
\.; c   ~
         II
              ITC FY 1999 Financial Statements and Management's Discussion and Analysis



                        UNITED STATES INTERNATIONAL TRADE COMMISSION
                                     Slatement of Budgetary Resources
                             For the Years Ended September 30, 1998 and 1999


                                                                             19I18              1999

                      BwigelaryRflswrIll:ll
    Budget Authority                                        (NOTE 12)        $4l,~,OOO          $44,4Z7,OOO
    Unobligated Balances - Beginning of ThriD d                                   8l9,lill        1,210,734
    Spending Authority fromOffsetting Collections           (NOI'E13)                   985          24,793
    Adjustmmts                                              (NCJI'E13)            !B3,487         1@543
    Tclbd~RflswrIll:ll                                                       $42,21)3664        $46.791 076

                  S1IID:B afB~_1lI:II
    Obligatio ns Ineuned                                    (NOTE14)         $4O,992,im         $44,213,570
    urn bligated Balances - Available                       (NOTE14)             1,210,734         ffi8,958
    Urnbligated Balarees- Unavailable                       (NOTE14)                       0      1,B78,548
    Tclbd,SlaIDs afBwlgelaryResmrces                                         !li42 2fi<l 6B4-   $46.791076

                             Oull.a)1s
    Obligations Incurred                                                     $4O,992,im         $44,213,570
    Less: Spending Authority fromOffsetting
          Collectio ns and Adjustmmts                                           (184,473)        (U53,342)
    Subtntal                                                                 $4O,&lS,457        $43,000,228
    Obligated Balances, Net - Beginning of Penod                               4,673,829          5,967,293
    Obligated Balances Transfened, Net                                                  0                 0
    Less: Obligated Balances, Net - End of'Fenod                              (5,967,2!l3)       (4,778,217)
    Tclbd 0uII.a)1s                                                          $39,514.993        $44 Willi


                               TbeAccc>npanying Notes Are anlntegJalf\ntofTbese Statemmts




                                                       21
   lie
   l~ ~
        -------------------------
             lTC FY 1999 Financial Statements and Management'" Discussion and Analysi,'
       •


                           UNITED STA TES INTERNATIONAL TRADE COMMISSION
                                               Statement of Financing
                                       For the Year Ended September 30, 1999




OtligatlOO" andN.u.qetaryRes00rce8
    Obligations Incurred                                                              $44,213,570
    Less: Spending Au1hority fiom()ffsetting
           Collectons and Adjustmmls                                  (NOTE 13)           (1, 1.53,342)
     Less: Net Obligation Adjustmmts not Reported to Treasmy          (NOTE 15)              (41574)
TDIIII Otligat!OO"asAqusted.andN~y~                                                                       $43,018,654

Resources 'lbBtDoNotFuodNetCoAsdOpes'aIIoJs
   Reduction in Arrnunt ofCoods, Services, and
     Benefits Ordered but not yet Received or Provided
   Costs Capitalized on the Balance Sbret, Net

TDIIII Resources 1bIItDoNotFuodNetCostdOperalkm

Ccl5ls 'lbBtDoNot~eResources
    Depreciation

TDIIII Ccl5ls'lbBtDoNot Rbfdre Resoorce8

F1mncJng SOJrces yet10be PrOltdfd
   Increase in unfunded Annual Leave

TDIIII FImncJng SOJrces Yet10be Pr<Jllidld

NetCaltdOpnlims


                   The Accorrpanying Notes Are an Integral l'artofThese Statem:.nls




                                                         22
~
i~
 •
   ITe FY 1999 Financial Statements and Management's Discussion and Analysis


                           Notes to Financial Statements
                           September 30, 1998 and 1999

Note I. Significant Accounting Policies

        A. Basis ofAccounting and Presentation - The United States International Trade
        Commission CITC) financial statements are prepared in accordance with generally
        accepted accounting principles (GAAP), and the form and content requirements
        specified by the OMB Bulletin 97~01, as amended. GAAP for Federal entities are the
        standards prescribed by the Federal Accounting Standards Advisory Board (FASAB),
        which was recently designated the official accounting standards-setting body for the
        Federal Government by the American Institute of Certified Public Accountants. The
        ITC is not subject to the Chief Financial Officer (CFO) Act and requirements of the
        Office of Management and Budget (OMB) Bulletin 97-0 I, Form and Content of Agency
        Financial Statements; however, the ITC has elected to follow these guidelines in
        preparation of the fiscal year 1998 and 1999 financial statements. The ITC's fiscal year
        is October I to September 30.

        B. Reporting Entity - The ITC is an independent agency of the U.S. Government created
        by an act of Congress and is headed by six commissioners, appointed by the President
        and con finned by the U.S. Senate for nine-year terms. The President designates the
        chairman and vice chairman, each of whom serve two-year terms.

        The ITC conducts investigations and reports findings relating to imports and the effect
        of imports on industry, and unfair import practices. The ITC advises the President on
        the probable economic effect of proposed trade agreements with foreign countries. The
        ITC also conducts analytical studies and provides reports on issues relating to
        international trade and economic policy on behalf of both the Congress and President.

        C. Financing Sources - The ITC has received a no-year appropriation for operations
        since FY 1993. Appropriations are recognized as revenue and expensed when related
        operating expenses are incurred. Differences between appropriations received and
        expensed are included in unexpended appropriations. Congress appropriated to the ITC
        $41,200,000 for salaries and expenses in fiscal year 1998 and $44,495,000 for both
        fiscal years 1999 and 2000. Congress also rescinded funds in the amount of $68,000 and
        $167,000 for FY 1999 and FY 2000, respectively. Additionally, $300,000 will be
        provided in FY 2000 from the Y2K Contingent Emergency Fund in accordance with the
        Omnibus Consolidated and Emergency Supplemental Appropriation Act.




                                               23
~
~~    ITC FY 1999 Financial Statements and Management's Discussion and Analysis


      D. Fund Balances with Treasury - The majority of fund balances represent appropriated
      entity funds in the custody of the U.S. Treasury and are available for payment of the ITC
      obligations. The ITC's obligated and unobligated fund balances are carried forward
      until goods or services are received and payment is made, or until such time as funds are
      deobligated.

      E. General Property, Plant, and Equipment - Property and equipment are recorded at
      cost with a corresponding entry to cumulative results of operation. Assets are carried net
      of accumulated depreciation until disposition. Effective October I, 1997, fixed assets
      are defined as items that: 1) have a single unit dollar value of $5,000 or more; 2) have a
      useful life of three years or more; and 3) are not consumable (i.e. lose identity upon use).

      F. Accrued Annual Leave - Annual leave is accrued at fiscal year end, although it is not
      funded until it is used by employees. Sick, compensatory, and certain other types of
      leave are not accrued and are expensed when used by the employee.

      G. Net Position - The components of Net Position are defined as follows:

              1. Unexpended appropriations include undelivered orders and
              unobligated balances.

              2. Cumulative results of operations is comprised of the net results of
              operations since inception plus the cumulative amount of prior period
              adjustments, including net changes in capital asset investments and
              accrued unfunded annual leave.

      H. Intergovernmental Activities - The ITC records and reports only those Government-
      wide financial matters for which it is responsible and identifies only those financial
      matters that the ITC has been granted budget authority and resources to manage.

Note 2. Fund Balances with Treasury


                                                                          1998          1999
     Entity                                                            $7,178,128   $ 7,355,723
     Non-Entity                                                                            4,877
                                                                      $ 7,178,128   $ 7,360,600

      Fund Balances with Treasury is the sole intragovernmental asset. Entity fund balances
      represent funds appropriated by Congress for use by the ITC. No entity funds are
      restricted; however, in accordance with Section 605 of Title 5 of Public Law 105-277,
      Congressional approval is required under certain reprogramming or transfer actions.


                                               24
it.~
"....     ITC FY 1999
                    . Financial Statements and Management's Discussion and Analysis

         Non-Entity funds include copier fees collected from the public for Freedom of
         Information Act (FOIA) and other documents which will be turned over to the U.S.
         Treasury and are not available for use by the ITC.

 Note 3. Imprest Funl!

         An imprest fund in the amount of $1,500 is established to provide funds for emergency
         travel advances, official reception and representation claims/advances, and small
         purchases.

 Note 4. Accounts Receivable

         Entity: The balance of funds receivable from ITC employees for salary overpayments is
         $537 at September 30, 1999.

         Non-Entity: Civil penalties imposed by the ITC in the amounts of $1,550,000 in 1997
         and $2,320,000 in 1999 are now deemed uncollectible and are no longer classified as a
         receivable. Certain erroneous disbursements related to the carpool subsidy program are
         due from ITC employees. Upon collection, these funds will be held in trust for the U.S.
         Treasury.

                      Non-Entity Accounts Receivable                         1998           1999
        Civil Penalties                                                   $ 1,550,000   $          0
        Employee Debt                                                                         1,855
                                                                          $ 1,550,000   $     1,855

 Note 5. Advances anl! Prepayments

         Outstanding travel advances to ITC employees totaled $1,300 on September 30, 1998
         and $1,500 on September 30,1999.

 Note 6. General Property, Plant. and Equipment

         Major classes of general property, plant, and equipment include: 1) office furniture,
         fixtures, and equipment, and 2) information systems and data handling equipment.
         Depreciation is recorded using the straight-line method, based on estimated useful lives
         of seven years and five years, respectively, with a ten percent residual value. Additional
         disclosures may be found in Note IE.




                                                   25
~
~~     fTC FY 1999 Financial Statements and Management's Discussion and Analysis



               Fiscal Year 1998                Acquisition        Accumulated            Net Book
                                                 Value            Depreciation            Value

      Office Furniture, Fixtures and
       Equipment                                 $ 1,674,656         $ 295,465           $1,379,191

      Information Systems and Data
       Handling Equipment                            1,177,368             798,989       $       378,379

                                                 $ 2,852,024        $ 1,094,454          $ 1,757,570


               Fiscal Year 1999                Acquisition        Accumulated            Net Book
                                                 Value            Depreciation            Value

      Office Furniture, Fixtures and
       Equipment                                 $ 1,397,506         $ 645,204           $       752,302

      Information Systems and Data
       Handling Equipment                            1,596,104             652,636       $       943,468

                                                  $ 2,993,610       $ 1,297,840          $ 1,695,770

Note 7. Liabilities Covered by Budgetary Resources

      Intragovernmental Accounts Payable: All intragovernmental accounts payable are
      current liabilities.


                                                                            1998                 1999
     Government Printing Office                                        $           364   $              5
     Department of Commerce                                                    2,400                    0
     Department of Treasury                                                    6,500                    0
     General Services Administration                                          16,224                    0
     National Institutes of Health                                            10,253                    0
     Department of State                                                             0             3,186
                                                                            $ 35,741         $     3,191

       Intragovernmental Accrued Payroll Benefits: Accrued Payroll Benefits due to the
       Department of the Interior amounted to $288,634 and $369,435 at September 30, 1998,
       and 1999, respectively, and are current liabilities.

       Public: Public accounts payable and accrued payroll and benefits are current liabilities.

                                                26
~>:-.
l~       ITC FY 1999 Financial Statements and Management's Discussion and Allalysis


 Note 8. Liabilities Not Covered by Bud.:etary Resources

         Intragovemmental: Accounts Payable consists of civil penalties imposed by the ITC
         which, upon collection, are held in trust for the U.S. Treasury and classified as long-term
         liabilities. In 1999, the penalties were deemed uncollectible and are no longer classified
         as a liability. Other Liabilities includes copier fees collected from the public for FOIA
         and other documents, and disbursements related to the carpool subsidy program which
         are being collected from ITC employees. Other Liabilities are payable to the U.S.
         Treasury and are considered current liabilities.

         Public: Accrued Annual Leave is the value of leave accumulated by ITC employees
         which is funded when used. The current portion is dependant upon such use and is,
         therefore, not accurately determinable.


                                                                              1998               1999
     Accounts Payable                                                     $ 1,550,000       $           0
     Other Liabilities - Copier Receipts                                                            4,877
     Other Liabilities - Employee Debt                                                              1,855
     Accrued Annual Leave                                                   2,432,346           2,470,991
                                                                          $ 3,982,346       $ 2,477,723

Note 9. Unexpended Appropriations


                                                                              1998               1999
        Unobligated Balances Available                                    $ 1,210,735       $ 2,619,081
        Undelivered Orders                                                  3,131,150           1,998,796
        Refund of Foreign Currency Transaction                                        100
                                                                          $ 4,341,985       $ 4,617,877

Note 10, Contin.:encies

         The lTC is a party in various pending or threatened litigation, claims and assessments
         that each individually represent a potential loss exposure in excess of $25,000. While
         the ultimate result of these legal proceedings cannot be predicted, management identified
         no material liability or gain or loss contingencies that are required to be accrued or
         disclosed.




                                                   27
~
i~     ITC FY 1999 Financial Statements and Monagemenl's Discussion and Anolysis


Note 11. Prior Period Adjustment

      Prior to fiscal year 1998, all capitalized real property was recorded at original cost and
      expensed upon disposal. The ITC elected to record depreciation expense effective
      October I, 1997. Accumulated depreciation was calculated for all real property from the
      time of acquisition through September 30, 1998. The portion applicable to fiscal year
      1998 was recorded as depreciation expense, and the portion applicable to years prior to
      fiscal year 1998 was recorded as a prior period adjustment included in Cumulative
      Results of Operations.

      In addition, a capitalized property reconciliation in FY 1999 revealed six items which
      had been placed in service in prior years. Accumulated depreciation on these assets was
      calculated through September 30, 1998. A prior period adjustment for FY 1999 was
      made for the net addition.


     Prior year fixed asset additions                                                 $ 72,091
     Accumulated depreciation                                                          (36,275)
                                                                                      $ 35,816

Note 12. Buda:;etAuthority


                                                                      1998            1999
     Funds appropriated by Congress, beginning of year             $41,200,000     $44,495,000
     Funds rescinded by Congress during year                                  o        (68,000)
                                                                   $41,200,000     $44,427,000




                                                28
~
i~~ ITC FY 19?? Financial Suuements and Management'« Discussion and Analysis
Note 13. Spending Authority from Offsetting Collections!Adjustments

        Spending authority from offsetting collections consists of refunds of prior year
        expenditures reported to U. S. Treasury as collections. Adjustments includes
        deobligation of prior year funds. A foreign currency refund was recorded by U. S.
        Treasury in September 1998 in the amount of $100.


                                                                          1998           1999
      Spending authority from offsetting collections                  $      985    $     24,799
      Recovery of prior year obligations                                  183,487       1,128,543
      Refund of foreign currency transaction                                 100
                                                                      $ 184,572     $ 1,153,342

Note 14. Status of Budgetary Resources

        The net amount of budgetary resources obligated for undelivered orders inc luded in
        Obligations Incurred amounted to $3,131,150 at the end of fiscal year 1998 and
        $1,998,796 at the end of fiscal year 1999.

        Based upon fiscal constraints anticipated for government agencies in the future,
        Congress directed the ITC to defer a portion of its recoveries from prior year
        appropriations and funds carried over from fiscal year 1998 for use in fiscal year 2000.
        Funds totaling $1,878,548 were deferred by the ITC during fiscal year 1999, but will be
        available in fiscal year 2000.

Note 15. Net Obligation Adjustments

        Following the close of FY 1999, a review of unliquidated obligations prompted a
        reduction in obligations for blanket purchase orders and travel authorizations. This
        adjustment was not included on the trial balance submitted to U.S. Treasury.

      Blanket Purchase Orders                                                           $ 40,763
      Travel Authorizations                                                                  811
      Net Adjustment to Obligations                                                     $ 41,574




                                               29
~ ,    ITC FY 1999 Fillallcinl Stalemellts alld Management's Discussloll and Analysis


Note 16. Costs Capitalized

      Fixed asset additions, including trade-ins                                            $351,679
      Fixed asset deletions, net of accumulated depreciation                                 ( 58,827)
                                                                                            $292,852

Note 17. Financinl: Sources Yet to be Provided

       This represents the net increase in accrued annual leave reflected on the balance sheet as
       a liability not covered by budgetary resources. Costs of this nature are incurred in this
       reporting period and are a component of net cost of operations. Other liabilities not
       covered by budgetary resources are not a part of net cost of operations or Obligations
       incurred and are not reflected on the Statement of Financing (see note 8).

Note 18. Net Cost of Operations

       The Statement of Net Cost is designed to show separately the components of net cost of
       operations classified by office and operation. Cost assigned to operations includes the
       full costs of the operation and consists of all costs that can be directly traced, assigned
       on a cause and effect basis, or reasonably allocated to the operation. The full cost of
       operations also includes costs of supporting services provided by other offices.

       Administrative Law Judge office cost is applied solely to Intellectual Property-Based
       Investigations since all its responsibility lies in that one area. Inspector General activity
       cost is not allocated to operations. Office of Information Service (OIS) and
       Commissioners' cost is allocated based upon that office's estimation of time spent on the
       operations. All other supporting cost is allocated based upon each operations' direct
       labor hours percentage.
                                                                                           1999
      Personnel Compensation and Benefits                                               $ 32,329,015
      Travel                                                                                363,219
      Other Travel & Transportation of Things                                                 12,314
      Space Rental                                                                        5,590,903
      Communications & Equipment Rental                                                     336,076
      Printing & Reproduction                                                               218,990
      Other Services                                                                       2,894,169

                                                   30
@   ITC FY 1999 Financial Statements and Management's Discuss/an und Analysis



Training                                                                            184,132
Supplies and Materials                                                              738,058
Equipment                                                                           803,277
Land & Structures                                                                   342,298
Depreciation                                                                        390,468
Loss on Disposal of Assets                                                           45,704
Unfunded Annual Leave                                                                38,645
Total Net Cost of Operations                                                    $ 44,287,268

    Compensation and Benefits. Compensation and benefits are charged directly to program
    operations through use of time and attendance labor cost coding whenever possible.
    Administrative and leave costs are allocated based upon each operations' direct labor
    hours percentage. Office of Information Service (OIS) and Executive Direction costs are
    allocated based upon the office's estimation of time spent on each operation. Other
    labor cost such as certain awards, workers' compensation, commuting program,
    inspector general, unfunded annual leave and other miscellaneous charges are costs not
    assigned to operations.

    Space Rental. Cost for space rent is assigned directly to individual offices based upon
    the square footage occupied and shared space is allocated to each office on a percentage
    basis. In Operations, External Relations, General Counsel, and Administrative Law
    Judge cost is charged to operations based upon the main focus of activity of the office.
    All other space is allocated to the operations using percentages described above.

    Travel and Training. Travel and training costs are assigned directly to offices using
    annual expenditure reports. In Operations, External Relations, General Counsel, and
    Administrative Law Judge cost is charged to operations based upon the main focus of
    activity of the office. All other travel and training cost is allocated to the operations
    using percentages described above.

    Equipment and Other Services. Equipment and other services are allocated to each
    office using the percentage of total labor hours of that office, and to operations based
    upon percentages described above.




                                             31
~   Ire FY 1999 FilUmcial Staremellls and Management's Discu<siotl ond Analysis.

    Other Support Cost. Other Support Cost includes any compensation and benefits, space,
    travel, training, equipment, and other services which are not assigned to operations.


                                                                                      1999
Personnel Compensation and Benefits                                                $ 1,066,943
Travel                                                                                    1,557
Space Rental                                                                            61,500
Other Services                                                                          24,253
Training                                                                                  1,247
Equipment                                                                                 6,731
                                                                                   :Ii J ) 62231

    Loss on Disposal of Assets. During FY 1999, loss on asset disposals was calculated as
    follows. This cost is not allocated to operations or offices.


                                                                                     1999
Pixed asset deletions at cost                                                       $ 282,183
Trade-in allowances                                                                   (13,123)
Related accumulated depreciation                                                     (223,356)
                                                                                    $ 45,704

    Other Costs. The following are costs not assigned to operations or offices: Other Travel
    and Transportation of Things, Communications and Equipment Rental, Printing and
    Reproduction, Supplies and Materials, Land and Structures, and Depreciation.




                                              32
                          OIG·AR-03·00




APPENDIX II




              O({iu   ole 'lH#JedM ~
                  1l,S-   1~7wi4~
                                                                       APPENDIX




UNITED STATES INTERNATIONAL lRADE COMMISSION
                            WASHINGTON, DC 20436


March 14,2000                                                       AD-X-029

MEMORANDUM

TO:            Acting Inspector General

FROM:          StephenA. McLaugWin, Director
               Officeof Administration       ~&-i'V'-"G~D"-l<::"'"

SUBJECT:      Responseto Draft Report OIG-AR-03-00: Audit of the USITC Financial
              Statements for Fiscal Year 19911 and 1999

This memorandum is the Officeof Administration's response to the Draft Report: Audit
of the USITC Financial Statements for Fiscal Year 19911 and 1999. I have reviewed the
draft audit report and am in generalagreement with the findings and recommendations.

The Inspector General recommends that the Director, Office of Administration:

1. Issue instructionsrequiring that a copy of all documents advising of moneys to be paid
to USITC be sent to OFB.

Response: Agree

AD proposes: The Officeof Administration will issue a memorandum to all office
directors remindingthem of their obligationto notify, in writing, the Office of Finance
and Budget of all receivables in a timely manner.

Action for this recommendation should be completed by May 1,2000.

2. Standardize the form III1d content of blanket purchase agreement call recordsand make
them available on the local area network for read only access by contract specialists and
financial personnel.

Response: Agree

AD proposes: The Officeof Administration will develop a standard blanket purchase
agreementcall recordIII1d make it available on the local area network for read only
access by contract specialist III1d finance personnel.
                                        2

Action on this recommendation should be completed by June 1, 2000.

3. Require the call records be reviewed by contract specialists on a regular basis
to ensure compliance with the FAR and terms of the blanket purchase
agreements.

Response: Agree

AD propose: Contract specialists will be instructed to review call records, once
posted on the Intranet, on a regular basis to ensure compliance with the FAR
and terms of the blanket purchase agreements

Action on this recommendation should be completed by June 1,2000.

4. Direct OFB to use call records as the basis for recording obligations for
blanket purchase agreements and other indefinite delivery agreements upon
implementation of the previons two recommendations.

Response: Agree

AD proposes: OFB will use call records as the basis for recording obligations
for blanket purchase agreements and other indefinite delivery agreements upon
the implementation of recommendations 3 and 4.

Action on this recommendation should be completed by June 1,2000.

5. Issue instructions requiring that Cost Center Managers review unliquidated
obligations on a regular basis and inform OFB of adjustments and de-
obligations in a timely manner.

Response: Agree

AD proposes: In order to facilitate regular, periodic de-obligation reviews, OFB
will issue accounting reports, instructions, as well as follow-up guidance to
CCMs, and request that adjustments be provided in writing to OFB.

Action on this recommendation should be completed by June 1, 2000.

Approve:   1                                  Disapprove:        _


                                                  3j'J-jro
                                                     i      j
Chairman, Lynn M Bragg                        Date

cc:     The Commission
        Director, Office of Finance and Budget
